No. 19-582

In the
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
I, Sara Ann Edmondson, certify that on February 18, 20201 served three (3) copies of the
Petition for Rehearing via regular mail to Respondents at:
Rebecca C. Lafferty
Cooper Levenson
1125 Atlantic Avenue, Suite 300
Atlantic City, NJ 08401

71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

